LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

April 8, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 19-431:
RE NO. 19-454:

LITTLE SISTERS OF THE POOR SAINTS PETER AND PAUL HOME
V. COMMONWEALTH OF PENNSYLVANIA, ET AL.
DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES, ET AL. V.
COMMONWEALTH OF PENNSYLVANIA, ET AL.

Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Brief of Amici
Curiae Lambda Legal Defense and Education Fund, Inc. and the Human Rights
Campaign referenced above contains 7,745 words, excluding the parts of the document
that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 8th day of April 2020.

